LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

November 15, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

CARLOS TAPIA V. NEW YORK

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for Petitioner, on November 15, 2019, I caused service to be made pursuant to
Rule 29 on counsel for the Respondent:
RESPONDENT:
James Jiann Wen
Office of the District Attorney, Bronx County
198 East 161st Street
Bronx, NY 10451
wenj@bronxda.nyc.gov
This service was effected by depositing three copies of the Reply Brief for
Petitioner in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

